<html>
<title> - THE EMPLOYMENT SITUATION: NOVEMBER 2009</title>
<body><pre>[Senate Hearing 111-421]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-421
 
                THE EMPLOYMENT SITUATION: NOVEMBER 2009

=======================================================================



                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2009

                               __________

          Printed for the use of the Joint Economic Committee




                  U.S. GOVERNMENT PRINTING OFFICE
55-806                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Jeff Bingaman, New Mexico
Loretta Sanchez, California          Amy Klobuchar, Minnesota
Elijah E. Cummings, Maryland         Robert P. Casey, Jr., Pennsylvania
Vic Snyder, Arkansas                 Jim Webb, Virginia
Kevin Brady, Texas                   Mark R. Warner, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                 Gail Cohen, Acting Executive Director
               Jeff Schlagenhauf, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Sam Brownback, Ranking Minority, a U.S. Senator from Kansas.     3
Hon. Elijah E. Cummings, a U.S. Representative from Maryland.....     4
Hon. Kevin Brady, a U.S. Representative from Texas...............     5
Hon. Amy Klobuchar, a U.S. Senator from Minnesota................     6
Hon. Michael C. Burgess, M.D., A U.S. Representative from Texas..     8

                               Witnesses

Dr. Keith Hall, Commissioner, Bureau of Labor Statistics, 
  Washington, DC; accompanied by: Dr. Michael Horrigan, 
  Commissioner for Prices and Living Conditions, Bureau of Labor 
  Statistics; and Mr. Philip Rones, Deputy Commissioner, Bureau 
  of Labor Statistics............................................    10

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney, Chair...    24
Prepared statement of Representative Kevin Brady.................    25
Prepared Statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. 09-1479......    26
Chart titled ``Monthly Change in Nonfarm Payrolls''..............    57


               THE EMPLOYMENT SITUATION: NOVEMBER 2009

                              ----------                              


                        FRIDAY, DECEMBER 4, 2009

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:37 a.m., in Room 
216 of the Hart Senate Office Building, The Honorable Carolyn 
B. Maloney (Chair) presiding.
    Representatives present: Maloney, Cummings, Brady, and 
Burgess.
    Senators present: Klobuchar and Brownback.
    Staff present: Gail Cohen, Colleen Healy, Elisabeth Jacobs, 
Andrew Wilson, Lydia Mashburn, Jeff Schlagenhauf, and Ted Boll.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. The meeting will come to order.
    The Chair recognizes herself for an opening statement, and 
then later each Member will have five minutes for their opening 
statements.
    For the first time since the recession began two years ago, 
the labor market has stabilized. Employment remained steady in 
November, and the unemployment rate ticked down to 10 percent.
    The current Administration took office less than 11 months 
ago. The economy was in the midst of the worst crisis since the 
Great Depression. In fact, the Council of Economic Advisers 
Chair, Christina Roemer, testified before this Committee that 
the shocks we endured in this great recession were actually 
worse than those in the Great Depression.
    Less than a year ago, job losses were growing more and more 
severe. Last November, the economy shed 600,000 jobs. Losses 
increased until January when they hit a post-Great Depression 
record of 741,000 jobs lost, the last month that former 
President Bush was in office.
    But we turned a corner. Job losses have steadily fallen for 
the past six months, and today we have learned that the labor 
market remained stable in November. The trend is heading in the 
right direction.
    There is no escaping the cruel math of recoveries. The 
recovery of the job market lags behind the recovery of the 
broader economy. Businesses must have more customers before 
they add more employees.
    However, thanks to the Recovery Act we are now seeing signs 
of growth. The nonpartisan Congressional Budget Office 
estimates that at least 600,000 additional workers were 
employed in the third quarter of 2009 because of the stimulus.
    We are on track to create or save at least 3.5 million jobs 
over the life of the Recovery Act. Average weekly hours are 
climbing, with indications that the manufacturing sector is 
driving that upward trend.
    Average hourly earnings are up, too, and job creation in 
the temporary help sector is a leading indicator of progress in 
the labor market.
    Since July, temporary help services has added 117,000 jobs, 
86,000 in November alone. Although the labor market appears to 
be stabilizing, too many Americans remain out of work. More 
than 15 million workers are unemployed.
    At the Joint Economic Committee we estimate that well over 
4 million Americans have seen their employment-sponsored health 
insurance coverage evaporate because of job loss.
    In the longer term, the passage of comprehensive health 
insurance reform will help assure that a lost job no longer 
means lost access to affordable, quality health care.
    In the meantime, we must ensure that a jobs' crisis does 
not turn into a health care crisis for more families. The COBRA 
benefit program allows laid-off employees to remain insured by 
purchasing continuing coverage from their employer's health 
insurance plan.
    Many out-of-work families were able to purchase affordable 
health insurance coverage, thanks to temporary COBRA premium 
support included in the Recovery Act. But that support expired 
this week, and many unemployed families will see their premiums 
skyrocket. Congress should now extend COBRA support to help 
struggling families.
    Today's jobs report makes it clear we are making progress, 
but the road to recovery will be long and it will not be easy. 
While we have brought the economy back from the brink, we are 
not yet where we need to be in terms of jobs creation.
    The mission is to create high-quality, private-sector jobs. 
Yesterday, President Obama convened a jobs summit where small 
and medium sized businesses, major employers, academics, and 
working men and women in labor brainstormed ideas for putting 
Americans back to work.
    In the last year, Congress has enacted policies that 
support struggling families and encourage jobs creation. The 
$700 billion Recovery Act included a tax cut for 95 percent of 
American families and created jobs, while investing in clean 
energy, infrastructure, and education.
    Just last month we extended the $8000 first-time home 
buyer's credit that will help spur construction jobs. We 
extended a host of safety net programs that will help 
struggling families weather this economic storm.
    We extended the net operating loss carryback provision that 
will help small businesses hire new employees, and we are 
boosting funding for small business loans via the Small 
Business Administration.
    Congress is continuing to work on new policies that will 
jump start job creation. Putting unemployed Americans to work 
rebuilding our Nation's crumbling infrastructure is an 
investment in our future.
    Other potential policies include targeted tax credits for 
job creation, and additional investments in education, health 
care, and energy independence.
    In the coming months, the Joint Economic Committee will be 
holding a series of hearings about job creation ideas from some 
of America's best and brightest.
    I encourage you all to attend next Thursday's hearing with 
Nobel Prize-winning economist Joseph Stiglitz who will be 
kicking off a series on job creation ideas.
    I thank the panelists for being here, and I recognize my 
colleague and good friend and Ranking Member Senator Brownback.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 24.]

   OPENING STATEMENT OF THE HONORABLE SAM BROWNBACK, RANKING 
              MINORITY, A U.S. SENATOR FROM KANSAS

    Senator Brownback. Thanks, Chair Maloney. I appreciate it, 
and I appreciate the hearing here today.
    Commissioner Hall, good to see you again. Good to see these 
numbers improving. While they are not building yet, they are 
not falling as fast, and so that is generally one of the signs 
we look for in a recovery is that the trend line, though in a 
fall, stops going quite as fast. So I am glad to see that, and 
glad to see temporary help services rise, which is usually 
another significant feature that we look at.
    I have several, though, strong concerns about this. It 
seems to me most of this is probably built on monetary policy 
not fiscal policy; that it is the Fed flooding the market with 
money that is doing this, creating what I fear could be, if we 
do not handle it right, a government bubble that follows the 
housing bubble that follows the dot com bubble taking place 
here; and that what we are seeing is a government bubble 
happening.
    These bubbles, it seems like they develop quicker and with 
more frequency, and with more problems each cycle as they go 
and they come around. That is one of the big concerns I have is 
that, and monetary policy.
    I do not think the fiscal policy situation is helping much 
at all, and I think it long term is a significant detriment to 
us because of the huge debt and deficits that are being run.
    The other thing that is very problematic to me in what is 
taking place now is the talk about raising of taxes and 
centralizing more and more things--whether those taxes be in 
the health insurance field, whether these taxes be on cutting 
the Bush tax cuts and putting more taxes into place; what the 
message is that small business is getting around this country 
is: Look out, your taxes are going up.
    The thing that put the Japanese--one of the things that put 
them into their lost decade was this raising of taxes at the 
time they were just starting to come out of their deep 
recession and deflationary situation.
    So what you have got for us is this coming out, probably, 
hopefully, in the unemployment situation. And then right as you 
come back up to the line you say, okay, now we are going to 
raise your taxes? To where then people that would employ, or 
would hire people are saying, well, I am not going to do that 
until that situation is stabilized. And you drive yourself back 
down into it. And your recovery is primarily built on monetary 
policy in the first place which has probably run its string 
here in the Fed in the next six to nine months is probably 
going to start raising rates and pulling back on some of the 
monetary policy.
    So I think we are in a very precarious spot. I would really 
hope that the Administration would stop the discussion on 
raising taxes, whether it is through cap and trade, or health 
care, or not extending the Bush tax cuts, and start talking 
about what it is that we can do to stimulate the overall 
economic environment and not through spending but for having a 
better environment for small business to grow and prosper.
    Because otherwise, I think we really do risk ourselves of 
going into a--going down again in a very problematic situation 
with having a lot fewer tools at our disposal to be able to 
use.
    Commissioner Hall, I look forward to hearing your specifics 
on this testimony today. It is my hope in the Senate we do not 
pass the raising of taxes on health care and cutting of 
Medicare. I think it would really send a bad signal at this 
point in time. I think it would be harmful, very harmful, to 
our overall economy. It is my hope that it will not happen in 
this body, and we are in session today and are going to be 
discussing that very thing.
    Thanks, Chair.
    Chair Maloney. Thank you very much.
    Congressman Cummings.

 OPENING STATEMENT OF THE HONORABLE ELIJAH E. CUMMINGS, A U.S. 
                  REPRESENTATIVE FROM MARYLAND

    Representative Cummings. Thank you very much, Madam Chair.
    I want to thank you so much for holding this hearing again. 
It is certainly good to see you, Commissioner Hall.
    The report we received this morning is a clear indicator 
that the economy is slowly returning to growth. Today's jobs 
report shows employers cut 11,000 jobs in November, the 
smallest decline since the recession began. And despite the 
fact that there were over 7 million jobs lost in the current 
recession and a 10 percent unemployment rate, job losses have 
moderated since last month's report.
    While the economic situation is not ideal, we know we are 
seeing signs of a recovery. According to the Bureau of Economic 
Analysis, GDP rose at an annualized pace of 3.5 percent in the 
third quarter versus 2.3 percent in the second quarter.
    And of course for most Americans, jobs are the key to a 
successful recovery and they have not been quick in coming. 
Americans want jobs that will put food on their tables, help 
send their children to college, and allow them to keep their 
homes warm at night.
    To support these efforts, President Obama held a forum 
yesterday to discuss the methods of creating jobs and expanding 
the economy.
    I just want to refer, Madam Chair, to the editorial in The 
New York Times dated December 3rd. Of course this was before 
the summit. But one of the things that they say in there, in 
that Times editorial which I agree with, they said:
    ``Mr. Obama must make the case that the immediate need for 
more federal help trumps the longer term need for deficit 
reduction. Otherwise, the economy is in for a self-reinforcing 
stretch of joblessness that would cost more in the end than 
additional spending today. Mr. Obama should detail separate 
plans for taming the deficit, including ironclad commitments to 
pay for health care reform. What he must not do is continue to 
conflate the need for job creation with the need for deficit 
reduction, to the detriment of jobs.
    ``Once job creation has the priority status it deserves, 
the next step is to build on proven programs and add new ones 
to address the scale and nature of joblessness.'' End of quote.
    To support the efforts of President Obama, I think we need 
to take a look at some things that would be extremely helpful. 
Plans within that agenda must address reducing our deficit, 
while simultaneously building programs. For example, passage of 
the Transportation Bill, and the Clean Water bill necessary to 
provide funding for job creation.
    That is something we can do immediately. Unemployment is at 
record levels nationwide, but the impact on the African 
American community is especially devastating with the last 
unemployment rate of 15.6 percent.
    According to a recent New York Times article, race remains 
a serious obstacle in the job market for African Americans, 
even for those with degrees from respected colleges.
    The unemployment rate for Black male college graduates 25 
years and older is 8.4 percent, compared with 4.4 percent for 
White male college graduates.
    I am encouraged by the efforts of President Obama and the 
Democratic Congressional Leadership in working toward a jobs 
package prior to adjournment. However, we must ensure that the 
entire Nation is brought along into his recovery.
    To that end, a comprehensive jobs package must include the 
creation of public service jobs improving our Nation's schools 
and infrastructure, and strengthening small, disadvantaged 
businesses.
    We must do all that we can to protect and defend our 
individual constituent, as well as small businesses and 
institutions that employ them.
    So as we await Commissioner Hall's testimony on the 
November employment statistics, I would like to close with the 
acknowledgement that, despite the progress we have made so far, 
we know we have a long way to go.
    With that, Madam Chair, I yield back.
    Chair Maloney. Thank you very much.
    Mr. Brady.

    OPENING STATEMENT OF THE HONORABLE KEVIN BRADY, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Brady. Thank you, Madam Chairman.
    Welcome, Commissioner Hall. Well the number of jobs lost is 
better than expected, which is good news. But we cannot 
celebrate a 10 percent unemployment rate, especially when the 
long-term unemployment rate continues to grow in very troubling 
numbers.
    Our economy continues to bounce along the bottom. Retail 
was up slightly. Temporary jobs were up slightly, and health 
care of course continues to add jobs.
    But key sectors--manufacturing, construction, and this 
month information technology, telecommunications--shed jobs, 
which I will be asking you about, Commissioner Hall, as well 
because on the telecom side that surprised me a bit.
    I was pleased to see the President host a jobs summit. I 
still think there is a disconnect. As I listen to proposals for 
more government spending, another $300 billion stimulus II, the 
truth is the greatest hurdle to our recovery continues to be 
businesses' reluctant to add new workers with Washington 
contemplating higher health care costs, energy costs, more 
regulation, and new taxes.
    Congress and this White House are frightening the horses. 
It needs to stop, because it is the private sector, not the 
government, that will move America into a sound economic 
recovery.
    As long, again, as Washington is saying grow jobs, jobs, 
jobs, and pushing on the peddle, but because of taking their 
eye off the ball on jobs and promoting issues that in fact 
frighten businesses and making them less likely to add jobs, we 
are putting brakes on them.
    So again, the sooner I think Washington gets a handle on 
its debt which scares consumers, stops promoting higher taxes 
which scares businesses, and starts looking at real incentives 
for business investment, only then will the private sector be 
able to lead us into a sound economic recovery.
    With that, I yield back.
    [The prepared statement of Representative Kevin Brady 
appears in the Submissions for the Record on page 25.]
    Chair Maloney. Senator Klobuchar.

   OPENING STATEMENT OF THE HONORABLE AMY KLOBUCHAR, A U.S. 
                     SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair.
    Greetings, Commissioner Hall. It is good to be here again.
    I want to, first of all, focus on this unemployment number. 
It is clearly some improvement, and it is a step in the right 
direction, but I still believe that Americans of all stripes, 
especially the middle class, continue to struggle in some of 
the toughest economic times that we have seen since the Great 
Depression.
    I always like to remind people at these hearings of what 
people in our State are saying. Here is a letter we just 
received the other day from a woman named Diane in Minneapolis. 
She said:
    I have been unemployed for more than a year, and all my 
unemployment benefits have expired. I have a masters degree, 25 
years of experience, and as of today I have submitted more than 
288 applications for jobs, made countless telephone calls, did 
all the appropriate networking, and went to every job fair that 
came to town, and I cannot get a job. Any influence you can 
bring will be greatly appreciated by me and the millions of 
people like me.
    While parts of our economy are clearly stabilizing with the 
Dow Jones over 10,000 again, it is clear that other parts of 
the economy are still struggling. We need to make sure that all 
Americans, not just the folks who happen to work on Wall 
Street, feel that we are digging ourselves out of the hole.
    And I am glad that the President held his job summit 
yesterday, and I'm hopeful that, as we go ahead, there is going 
to be a new-found focus on small businesses.
    The number is quite staggering. Over the past 15 years, 
small businesses created 64 percent of net new jobs, 
nationally, and that's why I'm very interested.
    A group of Senators, including Senator Mark Warner, has 
suggested that a portion of the TARP money that has come back, 
that has gone to mega-businesses, be devoted to getting the 
credit market flowing in small businesses again.
    Freeing up this flow of credit, so that our banks can start 
lending to small businesses, will make a big difference. 
According to a Treasury Department report released in mid-
November, the 22 banks that have received the most funding 
through TARP have cut their collective small business loan 
balances by $10.5 billion over the past six months, although I 
should note that of the top ten banks that are the biggest 
small business lenders, US Bancorps, a Minnesota-based bank, 
was one of two banks that has actually increased its small 
business lending since April of this year, so that there are 
definitely some banks out there that are doing their part.
    However, at a time when Wall Street, after emerging from 
its struggles on the backs of taxpayers, is set to pay 
outrageous bonuses again, while unemployment remains 
uncomfortably high for too many Americans, like the woman, 
Diane, the letter I just read, I am forced to ask the question, 
when is enough, enough, and how do we make sure that this money 
gets out there to continue to generate jobs?
    Part of it is the extension of unemployment that this 
Congress recently authorized, so that we have that safety net 
in place, the healthcare reform we're doing, but the other part 
of it is looking long-term.
    To me, this means a bigger focus on making things and 
reducing our debt, and less of a focus on this consumption 
economy and some of the spending that has gotten us to where we 
are.
    So, I believe, if you look at the long-term, the small 
business job generation has got to be a piece of this. It means 
not just some short-term help with credit, but it also means 
looking at the export market.
    Ninety-five percent of the customers right now, for small- 
and medium-sized businesses, are outside of our borders. Thirty 
percent of small businesses say that they would like to export, 
but they simply don't have the means to do it; they don't have 
the department like you'd have at good corporations like we 
have in Minnesota, like Cargill or 3M, that can have their own 
internal people help them figure out where their new products 
can be marketed across the world.
    The Commerce Department, the Foreign Commercial Service, 
does a very good job. We need to get that out there, we need to 
make sure they have the resources, and really set up a business 
match dot-com, so that these small- and medium-sized 
businesses, at a time when the Dollar is weak, and so that 
there is a great possibility for them to enter these markets, 
can really build their export market, as well.
    I don't think this is pie in the sky, if you look at the 
numbers and how much businesses are helped by just even a one- 
or two-percent increase in exports, and you look at what some 
of the countries have done in Europe to promote exports. Fifty-
eight percent of our exports from our country, are either to 
Canada or Mexico.
    So, as we look at these unemployment numbers and the good 
work of Commissioner Hall, I think we need to think forward, to 
not just be short-term policies that we've worked on with the 
stimulus and the extension, but some of the long-term thinking 
of how we better position our country, so that we are in the 
driver's seat again and determining our own destiny in this 
international economy. Thank you very much, Madam Chair.
    Chair Maloney. Thank you very much. Congressman Burgess.

OPENING STATEMENT OF THE HONORABLE MICHAEL C. BURGESS, M.D., A 
                 U.S. REPRESENTATIVE FROM TEXAS

    Representative Burgess. Thank you, Madam Chair. Along with 
the rest of the Committee, this was actually the first month 
since February, when I joined the Committee, that we've had a 
number that wasn't higher than the month before.
    In fact, there was one economist back home in my District, 
who pointed out the fact that ever since I had joined the 
Committee, the unemployment figures went up every month, and 
perhaps I should consider another Committee assignment.
    So I'm grateful that the number has gone down today. I 
don't know that it's cause for a great deal of celebration 
because we've all heard the talk about the green shoots in the 
economy in the past, and other folks talk about how it's hard 
to tell between green shoots and the wild weeds that are 
growing up through the cracks of the parking lot that no longer 
contain cars.
    Last month's number was troubling, this month's number is 
also troubling. We are very close to a post-Great Depression 
high of 10.8 percent, and the percentages, the numbers, don't 
tell the complete story.
    Ten percent unemployment means that one out of five 
Americans is unemployed, underemployed, or just plain given up 
and out of work. Ten percent means that one out of nine 
families can't make the minimum payments on their credit cards.
    Ten percent means that one out of eight mortgages are in 
default or foreclosure. Ten percent means that one out of eight 
Americans is on Food Stamps and more than 120,000 families are 
filing for bankruptcy every month.
    Furthermore, the economic crisis has wiped out more than $5 
trillion in wealth from pensions and savings. This is what's 
facing our middle class.
    You know, we've had Elizabeth Warren before this Committee 
before. I don't frequently agree with her, but yesterday she 
wrote an article entitled ``America Without a Middle Class,'' 
and some of her language was very forceful.
    Although I disagreed with her conclusions at the end, she 
stated, and I'm quoting here, ``When various forms of this 
creative banking triggered the economic crisis, the banks went 
to Washington for a handout, and all the while top executives 
kept their jobs and retained their bonuses even though the tax 
dollars that supported the bailout came largely from the middle 
class, from people already working hard to make ends meet. The 
beneficiaries of those tax dollars are now lobbying Congress to 
preserve the rules that had let those huge banks feast off the 
middle class'' end quote.
    She was also right when she said, continuing to quote, 
``Pundits talk about populist rage, as a way to trivialize the 
anger and fear coursing through the middle class, but they have 
it wrong. Families understand with crystalline clarity, that 
the rules that they have played by, are not the same rules that 
govern Wall Street,'' close quote.
    So, when we focus on an unemployment rate or maybe we'll 
get the actual U-6 number, the true unemployment rate, later on 
this morning, it's hard to think that Congress would willingly 
do anything more to help the rich or can conceive of enough to 
really help the poor.
    But it is the middle, the large swath with the backbone of 
our society, who are now seeing that if they work hard, they 
save, they fight to educate their children, become the same 
stewards of their families and their communities, that the 
Federal Government will not be there to help them, or, more 
importantly, the Federal Government shouldn't be hurting them 
with omnibus bills and cap-and-trade bills and healthcare 
bills, when they need help the most.
    And you've got to focus on the next generation. One 
perspective of this ten-percent unemployment number is that it 
reflects three million young adults, all under the age of 30, 
who cannot find a job, kids that have recently graduated from 
community college, all the way up to Harvard Law School.
    If we cannot teach our next generation on how to be 
gainfully employed the moment they finish school, we've 
permanently set them back for the rest of their lives.
    As Senator Brownback and Congressman Brady have eloquently 
described the problems facing small business, I have a steady 
stream of people through my office that tell me, well, the 
conditions in Texas are perhaps improving a little bit and they 
wouldn't consider adding a job--and I'm not talking about 
Google or the big insurance companies; I'm talking about a lady 
that runs a saddle making business; I'm talking about a guy 
that runs an air conditioning compressor remanufacturing 
business; I'm talking about a guy that runs a cardiologist's 
office; I'm talking about a guy that runs a financial services 
office.
    They've been hammered, and they're hunkered down. They are 
not going to add jobs, because they look up here at Washington 
and see Congress tinkering in all of these areas where, 
arguably, we don't belong, and there's no way they're going to 
add to their payroll.
    Well, okay, that's just one job in a small mom-and-pop 
financial services or a small cardiology shop, but when you 
extrapolate that across the broader economy, I mean, every 
politician stands up on a stump sometime and says that small 
business is the engine that creates jobs well coupled with 
reduced consumer spending, because people, unlike the 
government, when they don't have money, they're not anxious to 
spend money they don't have, they don't have access to capital, 
even though we've put all this money into banks----
    We're focusing on Wall Street, and, to some degree, Main 
Street, but, really, we should consider what's going on on Oak 
Street and Elm Street back home because this is where the job 
growth will occur.
    You know, one of the crazy things is, we've got a big 
highway bill that we all know we need to do, and that's just 
sitting there. We did a huge stimulus bill in February, which 
didn't produce the results it was supposed to, but we're not 
doing the work on the highway bill, which is one of those 
things that, arguably, would produce some of those 
infrastructure jobs that are so desperately needed.
    And, unlike the transportation jobs or the infrastructure 
jobs in the stimulus bill, these would be real, long-term 
projects. We're kind of coming to the end of whatever shot in 
the arm we got with the stimulus, with the small amount of 
money that was put into transportation infrastructure.
    Chair Maloney. The gentleman's time has expired.
    Representative Burgess. Potholes have been filled, and 
those people are being let go. Thank you. I'll yield back the 
balance of my time.
    Chair Maloney. Thank you. I'd now like to introduce 
Commissioner Hall. Thank you for being here.
    Dr. Keith Hall is the Commissioner of Labor Statistics for 
the U.S. Department of Labor. The BLS is an independent 
national statistical agency that collects, processes, analyzes, 
and disseminates essential statistical data to the American 
public.
    He also served as Chief Economist for the White House 
Council of Economic Advisers.
    Thank you for being here and we look forward to your 
testimony.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
    STATISTICS, WASHINGTON, DC; ACCOMPANIED BY: DR. MICHAEL 
HORRIGAN, COMMISSIONER FOR PRICES AND LIVING CONDITIONS, BUREAU 
OF LABOR STATISTICS; AND MR. PHILIP RONES, DEPUTY COMMISSIONER, 
                   BUREAU OF LABOR STATISTICS

    Commissioner Hall. Thank you. Madam Chair and Members of 
the Committee, thank you for the opportunity to discuss the 
employment and unemployment data we released this morning.
    The unemployment rate edged down to ten percent in 
November, and non-farm payroll employment was essentially 
unchanged. Additionally, after revision, the estimates of job 
loss for September and October were smaller than reported last 
month.
    In November, job losses occurred in construction, 
manufacturing, and information, while employment rose in 
temporary help services and healthcare.
    Construction employment fell by 27,000 over the month, 
compared with an average monthly decline of 63,000 in the prior 
six months. In recent months, most of the decline has occurred 
in the non-residential components.
    In manufacturing, employment fell by 41,000 in November, 
about in line with the trend over the prior four months.
    There were notable job cuts over the month in machinery, 
computer and electronic products, and printing. The factory 
work week rose by three-tenths of an hour, and has increased by 
one full hour since May.
    In November, employment in the information industry 
declined by 17,000, with telecommunications accounting for half 
of the loss.
    Employment in temporary help services rose in November. The 
industry started the year with large job losses, averaging 
69,000 per month through April.
    Recently, the industry has added jobs, with gains averaging 
48,000 per month in October and November. Over the month, 
employment continued to increase in healthcare, with gains in 
home healthcare and hospitals. Since the recession began, 
healthcare has added 613,000 jobs.
    Turning now to some measures from the Household Survey, the 
unemployment rate edged down from 10.2 to 10.0 percent in 
November. The rate was 4.9 percent when the recession began in 
December of 2007.
    There were 15.4 million unemployed persons in November, 
down slightly from the prior month. The number of persons who 
are unemployed because of job loss declined in November. The 
number of long-term unemployed continued to grow, rising by 
293,000 over the month, to 5.9 million.
    The employment-to-population ratio held at 58.5 percent. 
When the recession began, it was 62.7 percent.
    Among the employed, the number of persons working part-time 
in November, who would have preferred to work full-time, was 
little changed at 9.2 million.
    Among those outside the labor force, that is, persons 
neither working nor looking for work, the number of discouraged 
workers in November was 861,000, up from 608,000 a year 
earlier.
    These individuals are not currently looking for work, 
because they believe no jobs are available to them.
    In summary, non-farm payroll employment was essentially 
unchanged in November, and the unemployment rate edged down to 
ten percent.
    My colleagues and I would now be happy to answer your 
questions.
    [The prepared statement of Commissioner Hall appears in the 
Submissions for the Record on page 26.]
    Chair Maloney. Thank you. What are the bright spots in this 
month's jobs report? What good news do you have for the 
American people?
    Commissioner Hall. Well, the first, of course, is that the 
unemployment rated edged down and the job loss at minus 11,000 
was essentially unchanged for November.
    I also think that we now get a picture of a prior three 
months, prior to November, that job loss had moderated a fair 
amount to 135,000 a month.
    And, looking forward, temporary help added 52,000 jobs. 
That's a pretty reliable leading indicator, and that has been 
steadily improving, actually, through the year--through much of 
the year.
    And then the average weekly hours for manufacturing is also 
a leading indicator. That increased by three-tenths of an hour, 
and has shown steady improvement.
    Chair Maloney. And are there any sectors experiencing more 
job creation than job losses?
    Commissioner Hall. Well, the sectors that had significant 
job gains were the temporary help services, which is typical, 
after large job loss like we've had. And we also had job growth 
in education and healthcare, as well.
    Chair Maloney. And are there any indicators that overall 
job losses will continue to slow in coming months?
    Commissioner Hall. Well, I think that a couple of the 
leading indicators, the temporary help and the average work 
week in manufacturing, are both encouraging, and I think the 
fact that, in addition to this November number, the prior three 
months showed moderation, I think is a good sign, as well.
    Chair Maloney. So we're seeing some good signs, for a 
change?
    Commissioner Hall. Yes.
    Chair Maloney. And what is the typical amount of time, 
after job contraction ends, before the labor market starts 
showing signs of recovery?
    Commissioner Hall. Well, if showing signs is a moderation 
in job loss, and I think that is a sign, that can occur just a 
few months after we start to see signs of growth in output.
    It is likely--in the past, it's been true that strong job 
growth has taken a few months after we get growth in the output 
side of the economy.
    Chair Maloney. Could you speak about how we have recovered 
in the past recessions? Usually, employment has lagged behind 
economic recovery. Is that true, and would you elaborate on job 
growth coming after positive economic indicators?
    Commissioner Hall. Sure. In past recessions, it's taken a 
few months for job loss to moderate to where it's around 
unchanged or very modest job loss.
    In the last recession, it took about four months after the 
end of the recession, for job loss to moderate down to 
something like 35,000 a month. In the recession before that, it 
took about three months for job loss to actually get to around 
unchanged.
    But to actually get strong job gain, in the past two 
recessions, it's been something like a year and a half after 
that, before we got strong job growth.
    Chair Maloney. A year and a half?
    Commissioner Hall. Yes.
    Chair Maloney. Some economists have estimated that it will 
take 10.7 million jobs created, to get us back on the pre-
recession unemployment rate.
    Assuming that jobs are created at 2.8 million jobs per 
year, the best job creation record of any Administration--and 
this was achieved by former President Clinton--how long would 
you expect it to take us to get us back to full employment?
    Commissioner Hall. Well, without offering an opinion on 
that 10.7 million jobs, at that rate, though, it would be about 
three years.
    Chair Maloney. About three years, okay, thank you very 
much.
    The Chair recognizes Senator Brownback.
    Senator Brownback. Thank you very much, Chairman.
    Commissioner Hall, who hired temporary people? You noted 
that the temporary numbers went up. Who hired the temporary 
people? Do we have those by category; do we have those in any 
major categories?
    Commissioner Hall. We actually don't, and that's in large 
part because a lot of the temporary help companies that 
specialize in this, they actually can't tell us in what 
industries the job growth occurred, so we actually don't know 
that information.
    We know that about occupations, but we don't know very much 
about what industries they're being hired in.
    Senator Brownback. That would seem to be an indicator of 
where likely hiring would take place, after they fill the 
temporary job, that they would more likely step up with a full-
time job; is that correct?
    Commissioner Hall. Yes.
    Senator Brownback. I agree with Senator Klobuchar, that, I 
think, in the future, we've got to make more things here and 
rely less on our consumer to spend our way into prosperity in 
this economy.
    Do you see any trends of signs of that in these numbers, in 
either what's falling or what is starting to create some jobs?
    Commissioner Hall. It's hard to tell on the employment 
numbers at this time, what the economy is going to look like 
when we get back to solid economic growth, whether consumer 
spending will go back to quite the level it was before.
    I just don't think we could say right now.
    Senator Brownback. And you don't break it out any way like 
that, or you can't pick that out of the numbers of the data?
    Commissioner Hall. Not really the employment numbers so 
much, no. Obviously, on the output side, if you look at the 
components of GDP, you can see consumer spending and sort of 
see how that's behaving.
    But most of these employment numbers are sort of indirect. 
You know, there is the indirect effect of economic growth.
    Senator Brownback. You are trying to determine what a 
``green job'' is. I believe you've--can you provide me with any 
details on current efforts by BLS to define and measure ``green 
jobs''?
    Commissioner Hall. Sure. We have a proposal to work to 
measure ``green jobs'' in our 2010 budget, in our Budget 
proposal from the President. We haven't had the appropriation 
yet, so our work at this point has been research, so far.
    I can tell you that we're likely to, first, focus on 
industries where there may be ``green employment'' or ``green 
output,'' and then focus on occupations within those 
industries. That's sort of our rough plan and how we're going 
to proceed, once we get funding.
    Senator Brownback. Can you tell, in your numbers, where 
there was a policy movement that was made and jobs created, or 
a policy move made and jobs hurt?
    Here, what I'm getting at, is, on the Cash For Clunkers 
Program, there was a lot of discussion about the maintenance of 
jobs within the automobile manufacturing sector, with that. Can 
you pick that up or any of those factors, or monetary policy 
factors, in any of your numbers, that jump out at you or any of 
the economists at BLS?
    Commissioner Hall. No, it's very hard for us to pick out 
the cause of changes in these numbers, because we're just sort 
of counting the number of jobs, and, in fact, the 
establishments that we survey, they don't always know why their 
business has picked up.
    So it's very hard for us to sort of pull out the effects of 
policy like that, certainly not all of the effects.
    I can tell you one possible exception, and this is the Cash 
for Clunkers. We don't know what the full effects are. There 
may be much more, but we certainly did see a pick-up in retail 
sales at automobile dealerships when Cash For Clunkers was in 
place, but beyond that, I couldn't tell you what the effect is.
    Senator Brownback. Thank you, thank you, Chair.
    Chair Maloney. Thank you very much. Congressman Cummings.
    Representative Cummings. Thank you very much.
    Let me make sure I understand this. Since this--when would 
you say this recession began?
    Commissioner Hall. It began in December of 2007.
    Representative Cummings. I didn't hear you.
    Commissioner Hall. I'm sorry. December of 2007, so it's 
been 23 months.
    Representative Cummings. And during that period, what was 
the highest number of jobs lost?
    Commissioner Hall. That's a good question.
    [Pause.]
    Representative Cummings. And what month was that?
    Commissioner Hall. In January of this year, we lost 741,000 
jobs.
    Representative Cummings. In January of this year?
    Commissioner Hall. Yes.
    Representative Cummings. Now, so this month, we lost how 
many?
    Commissioner Hall. Eleven thousand.
    Representative Cummings. Eleven thousand. We went from 700-
and-some thousand in January of this year, to 11,000 this 
month?
    Commissioner Hall. Yes.
    Representative Cummings. That's a major cut.
    Commissioner Hall. Yes, it is.
    Representative Cummings. It's major now?
    Commissioner Hall. Yes.
    Representative Cummings. I mean, people may want to down-
play it, they may want to say that it's no big deal, but it is 
a big deal; would you agree?
    Commissioner Hall. I would agree; this is the smallest 
monthly job loss we've had since the recession started.
    Representative Cummings. Since the recession started.
    And let's go back to this temporary situation. I've heard 
you say, from that chair, many times, that one of the things 
you look at--and you said it today--one of the things you look 
at with regard to temporary jobs, is that when you--they 
basically are an early indicator that we may be moving--a 
pretty good indicator that we may be moving in the right 
direction, as you see them go up; is that right?
    Commissioner Hall. That's correct. And it was a leading 
indicator, going into the recession, and it generally, in the 
past, has been a leading indicator, coming out of a recession.
    Representative Cummings. So, going into recession, help me 
with that. Tell me what you're looking for.
    Commissioner Hall. Sure. Well, for example, in temporary 
help, the temporary help industry started having declining job 
growth, in, I'd say, early 2007 to mid-2007, so it was showing 
signs of a slowing in the labor market in early 2007, before we 
went into the recession in January of 2008--or December of 
2007.
    Representative Cummings. You know, teenagers have been 
especially hard-hit during this recession. As the economy 
recovers, are teens going to be the last to be hired, I mean, 
from what you can see, and are we creating a lost generation of 
youth?
    You know, there was--I read something just recently, that 
African American youth from 16 to 24 had a jobless rate of over 
35 percent. I'd say that that's--you know, I don't know how 
accurate that is, but I would say that it's probably worse than 
that in many districts.
    I was just wondering, what can you see from your teenage 
rates? I mean, it was young people's rates, and I don't know 
whether you break it down, 16 to 24, how you break that down, 
but however you do it, tell me what that situation is.
    Commissioner Hall. Sure. Yeah, the--in all the categories 
of workers, no matter what age, what gender--oh, I'm sorry, no 
matter what gender or their minority status, their unemployment 
rates are higher than everybody else.
    They're higher, they've gone up more during this recession, 
they generally started higher, as well.
    Representative Cummings. A lot of people--this is a comment 
and not for you to answer--a lot of people want to say that 
maybe it's education, but there's been recent research that an 
African American male with a high school diploma and no record, 
no criminal record whatsoever, is just as--I mean, he--he's--
when it comes to employment, he's level, just about, with a 
person, a white male with a record.
    And then so you and I have talked many times about this 
whole thing of race. It is significant, sadly, in this day and 
age.
    What is the unemployment for white folks in America?
    Commissioner Hall. The unemployment rate is 9.3 percent.
    Representative Cummings. That's 9.3 percent?
    Commissioner Hall. Yes.
    Representative Cummings. And for African Americans, what is 
it?
    Commissioner Hall. It's 15.6 percent.
    Representative Cummings. Now, what was it last time for 
African Americans, the last time, last month?
    Commissioner Hall. Last month, it was 15.7 percent.
    Representative Cummings. So they've come down one point. 
And what was white for last time?
    Commissioner Hall. It was 9.5 percent, so it's come down 
two-tenths.
    Representative Cummings. Okay. And what about Hispanics?
    Commissioner Hall. Hispanics is at 12.7 percent. It's 
declined by four-tenths of a percent.
    Representative Cummings. I see my time is up. Thank you, 
Madam Chair.
    Chair Maloney. Okay, Congressman Brady.
    Representative Brady. Thank you, Madam Chairman. I think we 
ought to always look for good news with these numbers, and 
there is some today, but I do caution this Congress against any 
kind of end-zone dance just yet on this economy.
    Our GDP growth for the last quarter was just revised 
downward to 2.8 percent; the number of long-term unemployed 
increased to almost six million workers in America, which is 
very troubling.
    And in our unemployment numbers, we are--America continues 
to be the worst-performing country when it comes to job losses, 
of any of our major competitors. Other countries are 
stabilizing faster and recovering faster than we are, and 
that's important as we move forward and to keep in perspective.
    I always wonder, you know, is all this government spending 
working? And in the massive effort, while I think we've taken 
our eye off the ball on jobs and focused on cap-and-trade and 
healthcare and a number of other distractions, jobs have 
suffered.
    The stimulus bill, we were told, poured billions of dollars 
into infrastructure, and we're told construction and 
manufacturing would see the greatest job gains; they've seen 
among the greatest job losses.
    We poured--and the question I have, initially, for you, is, 
this government's poured billions of dollars into health IT, 
into telecom funding, broadband employment, yet this report 
today shows 17,000 job losses in information and telecom. 
What's the reason for that?
    Commissioner Hall. I don't know. I can tell you that the 
17,000 decline is about on average over the past twelve months, 
so it's been a little bit of a trend lately.
    And in the prior six months, it was still about the same, 
so----
    Representative Brady. These aren't one-time job losses; 
this continues to be steady job losses in those areas?
    Commissioner Hall [continuing]. Yes.
    Representative Brady. Okay, can I ask about--I want to be 
real realistic about how long it will take us to dig out of 
this hole. The Wall Street Journal recently calculated that if 
the number of payroll jobs goes at the same rate as it did 
during the last expansion, that it would take nearly seven 
years to get back to where we were, to regain 7.2 million 
payroll jobs that have been lost.
    A number of economists, in the same publication, have 
estimated that it will take five to six years before we see a 
five-percent handle on unemployment again. You just said that 
it would only take three years to get back to full employment.
    That's a big difference.
    Commissioner Hall. Yeah, I was using some assumptions that 
came from the question. We haven't done this calculation 
ourselves.
    Representative Brady. Would you consider them to have been 
fairly rosy assumptions, compared to average expansions after 
recessions?
    Commissioner Hall. You know, it's hard to tell. You know, 
it's hard to know where we're going to come out with this 
expansion, what sort of job growth we're going to have.
    Representative Brady. How long--can I ask--it is a big 
guess, and I'm sure it's a huge range, but based on today's 
report, how much would household employment have to increase, 
for us to get back to eight percent and then to five percent 
unemployment, would you guess?
    Commissioner Hall. I'd have to think about that a little 
bit. We probably need monthly payroll job growth something in 
the 115,000 to 120,000 a month, to--that's consistent with a 
holding unemployment rate, so we'd need growth somewhere over 
that in payroll jobs, to start reducing the unemployment rate, 
over a long-run time period. I can tell you that.
    I'm not sure I could do the calculation quick enough.
    Representative Brady. And that works off about 1.4 or 1.5 
million jobs a year, regains, 1.5 million, so, if we've lost 
seven, we're talking about four or five, somewhere in that 
range, if we were to gain at that rate consistently?
    Commissioner Hall. Oh, at that rate, that's correct, 
although that's a fairly slow rate, but, yes.
    Representative Brady. Okay, all right, thank you, 
Commissioner.
    Chair Maloney. Thank you. I just would like to respond to 
my good friend and colleague, Congressman Brady, who noted that 
Democrats should not be dancing in the end zone. We certainly 
are not dancing in the end zone.
    The President is taking job creation incredibly seriously, 
as is every member of Congress on both sides of the aisle. But 
if you look at the chart, you have to admit we are trending, 
under the Democratic Administration, in the right direction.
    The last month that former President Bush was in office, we 
lost 700,000 jobs, and we have consistently moved in the right 
direction, to this month, where it is 11,000 jobs. It is a 
tragedy for every American family that has lost a job in the 
past or in the present, but we are trending in the right 
direction.
    [The chart titled ``Monthly Change in Nonfarm Payrolls'' 
appears in the Submissions for the Record on page 57.]
    The Chair recognizes Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Chairwoman Maloney. 
I think that chart is a very good way of looking at this, even 
though we know people are still suffering, to see the changes 
over time.
    I will also note for the record, that the only people 
dancing in the end zone, are the Minnesota Vikings, after Brett 
Favre has thrown these great passes, just in case you guys 
missed it. [Laughter.]
    Okay, my question, first of all, generally, Commissioner 
Hall, is about why we're seeing this trend? Could it have 
anything to do with hiring for the holiday season, or do you 
see it as a broader signal of economic recovery?
    Commissioner Hall. It would have to be the latter. Our data 
is seasonally adjusted, so we take into account, the normal 
seasonal patterns like the holidays, into account in estimating 
these numbers, so this means more than just seasonal.
    Senator Klobuchar. So you actually anticipate, when the 
holidays are coming up, that you're going to see some bump-up, 
and you sort of discount that effect?
    Commissioner Hall. Yes, exactly.
    Senator Klobuchar. Okay, well, I didn't know that. That's 
good.
    We hear repeatedly that unemployment is one of the last 
things to swing back as part of a recovery. When you look back 
through history, with all the many years you've been looking at 
these figures, how long does it usually take unemployment to 
catch up with the other economic indicators, like, as we know 
we've seen increase in GDP and other things?
    Commissioner Hall. Well, that's actually going to be one of 
the debates, I suppose, but the last two recessions, it took a 
long time. Focusing on the payroll jobs, for example, the last 
recession, it took 39 months for payroll jobs' level to get 
back to the pre-recession level.
    In the prior recession, it took around 24 months. Those are 
the two so-called ``jobless recoveries.''
    Senator Klobuchar. For the jobless recovery, then, what 
years were those?
    Commissioner Hall. 2001, and, then, before that, it was the 
1991.
    Senator Klobuchar. So, in 2001, it took 39 months?
    Commissioner Hall. Yes.
    Senator Klobuchar. And in 1991, it took how long?
    Commissioner Hall. Twenty-four months.
    Senator Klobuchar. Twenty-four months? And then do you have 
those figures of when other economic indicators improved before 
the job numbers went up, or a general sense of it?
    Commissioner Hall. Yeah, yeah, I mean, my count down there 
was from the official end of the recession, and that, 
typically, when the National Bureau of Economic Research--
that's the independent group that declares a recession over--
they typically will pick the end of a recession when the output 
numbers start to show growth and steady growth, and so I would 
say the number I gave you was pretty accurate delay from the 
time some of the other data showed improvement, to when the 
jobs data got back to----
    Senator Klobuchar. Oh, so you're saying there's, like, a 
39-month delay?
    Commissioner Hall [continuing]. Yeah. Now, this is not--
this delay is not before we see improvement in the labor 
market; this is before we see enough----
    Senator Klobuchar. Where it's back to where it was?
    Commissioner Hall [continuing]. Yeah, exactly, that the job 
level is back to where it was.
    Senator Klobuchar. Okay, so that's why you wouldn't be 
surprised that it's taking some time to get back to where we 
were before this all started?
    Commissioner Hall. Yes, absolutely.
    Senator Klobuchar. Okay. As you know, we discussed that the 
President held a jobs forum yesterday, with more than 100 CEOs 
and small business owners, business leaders, mayors, academics, 
to figure out what we should be doing here in Washington, 
beyond what's already been done to get the job market going 
again.
    Do you have any sense of what's worked best in the past for 
creating jobs?
    Commissioner Hall. I don't. I wouldn't want to offer an 
opinion on that.
    Senator Klobuchar. Oh, that's right, I forgot that you 
don't offer opinions.
    I have some ideas that I expressed in my opening statement. 
One of the things that I talked about, in addition to getting 
some of this amount of this TARP money out, in addition to a 
large amount going to deficit reduction, to also go to small 
business credit.
    Do you have a sense of what's happened in the past in terms 
of the statistics for U.S. exports and how that has led to 
significant job creation?
    Commissioner Hall. Yeah, I think, certainly, U.S. exports 
can be a significant stimulus. I'd have to say, from past 
experience, that U.S. exports rely, in large part, on growth 
outside the U.S.
    And if you sort of look at the economic growth in some of 
our major trading partners, that would give you a pretty good 
idea of how exports will pick up and what kind of stimulus that 
may be.
    Senator Klobuchar. So you're saying there's clearly a 
connection between more buying power in some of these other 
countries, and then we do better with our exports?
    Commissioner Hall. Yes.
    Senator Klobuchar. And so the fact that we're suddenly 
seeing some of these other countries that have been developing 
countries, starting to put more money, basically, into 
consumers' hands, that we're starting to see some increase in 
their living standards, that you could--from there, could be 
the possibility that you'd see the open markets for more 
opportunities for exports?
    Commissioner Hall. Yes.
    Senator Klobuchar. All right. Could you look back in time 
for me--and you don't have to do it right now, obviously--to 
see if you can see some connection between the unemployment in 
our markets and times when we've had this opportunity arise, 
either because of the weak Dollar or increasing markets for 
exports?
    Because, again, as I said in my opening, there's just this 
startling number, if you could even increase it by one or two 
percent, and we've got 95 percent of our potential customers 
outside of the United States' borders, with small and medium 
businesses having so little access to that, with increasing 
access within the last few years. I just see that as part of 
the improvement.
    I've seen it firsthand in our agricultural community in 
Minnesota. You know, we could--I could eat as much bacon as I 
want on TV to show that pork doesn't have H1N1, but what really 
helps, is when China finally opens its markets to our pork.
    All right, thank you very much, Commissioner.
    Chair Maloney. Thank you very much. The Chair recognizes 
Congressman Burgess.
    Representative Burgess. Thank you, Madam Chair. 
Commissioner Hall, let me ask you a couple of questions that I 
know you can't answer.
    You said that the recession started in December of 2007, 
correct?
    Commissioner Hall. Yes.
    Representative Burgess. George Bush was the President. Who 
was the Speaker of the House in December of 2007?
    Commissioner Hall. The same as now.
    Representative Burgess. And that would be Nancy Pelosi?
    Commissioner Hall. Yes.
    Representative Burgess. And she had been Speaker for a year 
at that time, and at that point we had come from an economy 
that was in relative expansion to an economy that was coming 
into decline.
    Now, has that been the same Speaker of the House since 2007 
to the present time?
    Commissioner Hall. Yes.
    Representative Burgess. Do you think that Congress really 
has an effect in creating or eliminating jobs in this country? 
Be careful I'm asking you for an opinion.
    Commissioner Hall. Yeah, yeah, and I was going to--I was 
just about ready to dodge it. [Laughter.]
    Representative Burgess. Well, and that is--of course, you 
don't have to answer the question because we've got people all 
over the federal district today talking about how Congress is 
going to create jobs, how the White House is going to create or 
save jobs, but, really, it's small business that creates jobs.
    We have the White House Summit going on and they've got all 
the big actors, they've got the Googles and the big folks down 
there, but as I said in my opening statement it's Elm Street 
and Oak Street.
    I think Senator Klobuchar has an excellent point. I have 
difficulty with some of the trade agreements that we've done in 
the past, but now it's been a year since we've done a trade 
agreement. Is that a good thing or a bad thing in a country 
that's trying to recover from a recession and reduce 
unemployment?
    Commissioner Hall. Well, I can give you a generic answer, 
and the generic answer is, of course, is, lots of times, 
exports can be a real source of growth and stimulus for an 
economy.
    Representative Burgess. And, again, I'd just emphasize that 
it's been a year since we've done any sort of trade agreement, 
and some agreements, like Columbia, have been languishing since 
they were passed by--or introduced in the last Congress, and 
we've been blocked by the Speaker of the House, from having a 
vote on that.
    Now, we could argue the rightness or wrongness of that, or 
whether that's a good thing or a bad thing, but we can't argue, 
because it can't come up for a vote, so we can't debate it on 
the floor.
    And to the extent that Congress does bear some 
responsibility for the loss of jobs or the lack of job 
creation, I think that's one of the things that has to be 
considered.
    And we all know from--I've got to be careful here, because, 
of course, I'd be asking you to offer an opinion and I know I 
must not do that, but we look at previous times where the White 
House has made a difference in job creation in this country, 
and, in my brief lifetime, that was when President Kennedy 
reduced the marginal tax rates and when President Reagan did 
the same thing in the 1980s.
    And, after both of those activities, we saw substantial job 
growth. In 2003, shortly after I arrived in Congress, we had 
some other tax policy instituted, at a time where the economy 
was in a recession and job growth was lagging, and it was a 
result of that tax policy, three months later, after it was 
signed into law in July of 2003, where we began to see 
substantial job creation.
    I just wonder if we shouldn't be looking at those things 
that have worked in the past.
    Now, interestingly enough, we had a stimulus bill that 
passed in February. And the stimulus bill had in it, as part of 
the stimulus bill, there was--we're going to invest in 
infrastructure, we're going to create shovel-ready jobs or go 
to shovel-ready jobs around the country, February is a good 
time to do that, because the construction season is going to be 
starting in the northern part of the country in just a few 
months time, but out of that $787 billion stimulus bill, my 
state of Texas received $2 billion for infrastructure projects.
    It seems like a fairly weak effort, but probably more 
importantly, the GAO report that has just come out states that 
the Federal Highway Administration is the best agency to 
fulfill job creation.
    Now, in the stimulus bill, the whole Federal Highway 
Administration only got $27 billion, and, as I pointed out, 
Texas got $2 billion, but also, because we have not done the 
highway bill reauthorization, we are having to rescind money 
back to the Highway Trust Fund in Texas. Texas had to send back 
$787 million in long-term funding, which put projects that 
were, indeed, shovel-ready a year ago, has put them now off the 
docket. They're not even being considered.
    So, does it make sense to provide a stimulus of $2 billion 
to Texas, but then take $787 million away in what otherwise 
should have been stable highway funding?
    [No response.]
    Representative Burgess. That's actually a yes or no 
question.
    Commissioner Hall. Oh.
    Representative Burgess. Does it make sense? [Laughter.]
    Not really an opinion, but I guess it could be regarded as 
an opinion, and you may want to dodge it, but does it make 
sense?
    Chair Maloney. The gentleman's time has expired, but 
Commissioner Hall may answer his question.
    Commissioner Hall. I'm not an expert in that, so I'll dodge 
that.
    Representative Burgess. The answer is, no, it doesn't make 
sense. Thank you, Madam Chairman.
    Chair Maloney. Thank you. The gentleman's time has expired.
    While some of my good friends and colleagues would like to 
find a negative spin to these numbers today, people on Main 
Street and the markets have found that today's news is nothing 
but good. The Dow Jones opened up over 100 points; the Dollar 
surged, the price of oil fell, and, most importantly, this 
chart shows that in January, the last month that President Bush 
was in office, we were losing 700,000 jobs.
    Every job lost is a tragedy, but under the Bush 
Administration--the Obama Administration, we've been trending 
in the right direction, and, this month, we only lost 11,000 
jobs. It's 11,000 jobs too many, and the Administration has 
responded with the Congress in passing the American Recovery 
Reinvestment Act, which has jump-started productivity, the 
extension of unemployment insurance that has given hope to 
American workers that are still looking for jobs, aid to states 
that has maintained public and private programs for some of the 
neediest Americans, and we are starting a series of hearings on 
job creation ideas, working with the President and others, and 
we look forward to working with the American people to get this 
economy moving even more in the right direction, and we will 
not stop until we have created a job opportunity for everyone 
who wants to go to work.
    I thank you, Commissioner Hall, for your hard work, and 
thank my colleagues for being here today. I look forward to 
seeing you next week on Thursday. The meeting is adjourned.
    Representative Brady. Madam Chairman? I was just going to 
say, I hope you have great holidays, and, Commissioner, we 
appreciate--although we tend to torture you each month when you 
come here, we do appreciate very much, the information you 
provide.
    We hope you and the whole BLS have a great holiday season.
    Commissioner Hall. Thank you.
    [Whereupon, at 10:41 a.m., the hearing was adjourned.]
                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Carolyn Maloney, Chair, Joint Economic Committee
    For the first time since the recession began two years ago, the 
labor market has stabilized.
    Employment remained steady in November, and the unemployment rate 
ticked down to 10 percent.
    The current Administration took office less than eleven months ago. 
The economy was in the midst of the worst crisis since the Great 
Depression.
    In fact, Council of Economic Advisers Chair Christina Romer 
testified to the Joint Economic Committee that the shocks we endured in 
this ``Great Recession'' were actually worse than those of the Great 
Depression.
    Less than a year ago, job losses were growing more and more severe. 
Last November, the economy shed 600,000 jobs. Losses increased until 
January, when they hit a post-Great Depression record of 741,000 jobs 
lost, the last month that President Bush was in office.
    But we turned a corner. Job losses have steadily fallen for the 
last six months. And today, we've learned that the labor market 
remained stable in November. The trend is heading in the right 
direction.
    There is no escaping the cruel math of recoveries. The recovery of 
the job market lags behind the recovery of the broader economy. 
Businesses must have more customers before they add employees.
    However, thanks to the Recovery Act, we are seeing signs of growth. 
The non-partisan Congressional Budget Office estimates that at least 
600,000 additional workers were employed in the third quarter of 2009 
because of the stimulus. We are on-track to create or save at least 3.5 
million jobs over the life of the Recovery Act.
    Average weekly hours are climbing, with indications that the 
manufacturing sector is driving that upward trend. Average hourly 
earnings are up, too.
    And, job creation in the temporary help sector is a leading 
indicator of progress in the labor market. Since July, temporary help 
services has added 117,000 jobs--86,000 in November alone.
    Although the labor market appears to be stabilizing, too many 
Americans remain out of work. More than 15 million workers are 
unemployed.
    At the Joint Economic Committee, we estimate that well over 4 
million Americans have seen their employment-sponsored health insurance 
coverage evaporate because of losing a job. In the longer term, the 
passage of comprehensive health insurance reform will help assure that 
a lost job no longer means lost access to affordable, quality health 
insurance coverage. In the meantime, we must insure that a jobs crisis 
does not turn into a health care crisis for more families.
    The COBRA benefits program allows laid-off employees to remain 
insured by purchasing continued coverage from their employer's health 
insurance plan. Many out-of-work families were able to purchase 
affordable health insurance coverage thanks to temporary COBRA premium 
support included in the Recovery Act. But that support expired this 
week, and many unemployed families will see their premiums skyrocket. 
Congress should now extend COBRA support to help struggling families.
    Today's jobs report makes it clear--we are making progress, but the 
road to recovery will be long, and it will not be easy. While we have 
brought the economy back from the brink, we are not yet where we need 
to be in terms of job creation. The mission is to create high-quality 
private-sector jobs.
    Yesterday, President Obama convened a Jobs Summit where small- and 
medium-sized businesses, major employers, academics, and working men 
and women brainstormed ideas for putting Americans back to work.
    In the last year, Congress has enacted policies that support 
struggling families and encourage job creation. The $700 billion 
Recovery Act included a tax cut for 95 percent of American families and 
created jobs while investing in clean energy technologies, 
infrastructure, and education.
    Just last month, we extended the $8,000 first-time homebuyers 
credit that will spur construction jobs. We extended a host of safety 
net programs that will help struggling families weather the economic 
storm.
    We extended the net operating loss carry-back provision that will 
help small businesses hire new employees. And we are boosting funding 
for small business loans via the Small Business Administration.
    Congress is continuing to work on new policies that will jump-start 
job creation. Putting unemployed Americans to work rebuilding our 
nation's crumbling infrastructure is an investment in our future. Other 
potential policies include targeted tax credits for job creation and 
additional investments in education, health care, and energy 
independence.
    In the coming months, the Joint Economic Committee will be holding 
hearings to learn about job creation ideas from America's best and 
brightest. I encourage you all to attend next Thursday's hearing with 
Nobel Prize winning economist Joseph Stiglitz, who will be kicking off 
job creation.
                               __________
   Prepared Statement of Kevin Brady, Senior House Republican, Joint 
                           Economic Committee
    I am pleased to join in welcoming Dr. Hall before the Committee 
this morning.
    Today's employment report again is bad news for American workers. 
During November, 11,000 payroll jobs were lost. The unemployment rate 
edged down to 10 percent.
    The lack of job creation has caused an unemployment crisis for our 
country. Even if the National Bureau of Economic Research eventually 
determines that a recovery began this fall, it remains a jobless, or 
even worse, a ``job loss'' recovery. And that's no recovery for 
American workers and their families.
    Instead of ``focusing like a laser beam'' on the unemployment 
crisis, President Obama and congressional Democrats have spent most of 
this year promoting misguided initiatives to address other, less 
pressing issues. For example, even though the ``climate-gate'' scandal 
has compromised the integrity of studies frequently cited to prove man-
made global warming, President Obama and congressional Democrats 
continue to press for a ``cap and trade'' scheme that would boost U.S. 
energy prices, slow economic growth, and put American manufacturers and 
their workers at a competitive disadvantage globally.
    Acknowledging both the strengths and weaknesses of our health care 
system, Americans sensibly want to fix what's wrong step-by-step and 
leave what's right alone. Ignoring this common-sense approach, 
President Obama and congressional Democrats are pushing for a complete 
overhaul of the health care system that would simultaneously boost 
taxes, limit choice, increase costs, and add to future federal budget 
deficits once accounting gimmicks are stripped away.
    I applaud President Obama for finally turning to our most pressing 
domestic challenge--the unemployment crisis--by hosting a jobs summit, 
but I have to wonder what concrete results will come of the 
discussions.
    In January, two of President Obama's top economists forecast that 
if the Congress were to enact the Obama stimulus bill, then the 
unemployment rate would remain at or below 8.0 percent during 2009. 
This is the relevant standard against which to measure the performance 
of the stimulus legislation. Unfortunately, since President Obama 
signed the stimulus bill into law on February 17th, the unemployment 
rate has increased far above 8 percent.
    Administration officials continue to make extravagant, 
statistically dubious claims about how many jobs the stimulus plan has 
allegedly created or saved. The press examined the reports on which the 
Administration based its jobs claims and indentified many jobs that 
have no connection to the stimulus or were counted multiple times. Some 
cases of misreporting are so ludicrous that the Administration's jobs 
claims have become the butt of jokes.
    In contrast to the Administration's difficult-to-substantiate 
claims, Bureau of Labor Statistics employment data show that the United 
States has suffered a net loss of 2.9 million payroll jobs since 
President Obama signed the stimulus bill into law.
    If President Obama really wants to create millions of new jobs, 
there is a lot that Republicans and Democrats can do together to reduce 
the unemployment rate. We know what works. We can take cues from 
Democratic President John F. Kennedy and Republican President Ronald 
Reagan, each of whom launched a decade-long economic boom that created 
millions of jobs.
    First, we must control the growth of federal spending to bring down 
federal budget deficits, scaling back or delaying costly new 
initiatives.
    Second, we must stop all tax increases on American families and 
businesses as long as the unemployment crisis persists.
    Third, we must reduce the tax burden on new business investment. 
Business investment is very responsive to changes in the tax burden 
placed on it. Most importantly, business investment creates new and 
frequently better jobs.
    We could reduce the tax burden on business investment in several 
ways--Kennedy instituted a 7 percent investment tax credit, while 
Reagan accelerated tax depreciation. We also should reduce our high 
corporate income tax rate.
    I am encouraged that President Obama has finally acknowledged the 
unemployment crisis. I hope that we can learn from history and finally 
do what will actually boost growth and create jobs.
    Dr. Hall, I look forward to hearing your testimony.
                               __________
    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics
    Madam Chair and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    The unemployment rate edged down to 10.0 percent in November, and 
nonfarm payroll employment was essentially unchanged (-11,000). 
Additionally, after revision, the estimates of job loss for September 
and October were smaller than reported last month. In November, job 
losses occurred in construction, manufacturing, and information, while 
employment rose in temporary help services and health care.
    Construction employment fell by 27,000 over the month, compared 
with an average monthly decline of 63,000 in the prior 6 months. In 
recent months, most of the decline has occurred in the nonresidential 
components. In manufacturing, employment fell by 41,000 in November, 
about in line with the trend over the prior 4 months. There were 
notable job cuts over the month in machinery, computer and electronic 
products, and printing. The factory workweek rose by 0.3 hour and has 
increased by one full hour since May. In November, employment in the 
information industry declined by 17,000, with telecommunications 
accounting for half of the loss.
    Employment in temporary help services rose in November. The 
industry started the year with large job losses, averaging 69,000 per 
month through April. Recently, the industry has added jobs, with gains 
averaging 48,000 per month in October and November.
    Over the month, employment continued to increase in health care, 
with gains in home health care and hospitals. Since the recession 
began, health care has added 613,000 jobs.
    Average hourly earnings of production and nonsupervisory workers in 
the private sector were up by 1 cent in November to $18.74. Over the 
past 12 months, average hourly earnings have risen by 2.2 percent. From 
October 2008 to October 2009, the Consumer Price Index for Urban Wage 
Earners and Clerical Workers (CPI-W) declined by 0.4 percent.
    Turning now to some measures from our household survey, the 
unemployment rate edged down from 10.2 to 10.0 percent in November. The 
rate was 4.9 percent when the recession began in December 2007. There 
were 15.4 million unemployed persons in November, down slightly from 
the prior month.
    The number of persons who were unemployed because of job loss 
declined in November. The number of long-term unemployed continued to 
grow, rising by 293,000 over the month to 5.9 million.
    The employment-population ratio held at 58.5 percent. When the 
recession began, it was 62.7 percent. Among the employed, the number of 
persons working part time in November who would have preferred full-
time work was little changed at 9.2 million.
    Among those outside the labor force--that is, persons neither 
working nor looking for work--the number of discouraged workers in 
November was 861,000, up from 608,000 a year earlier. These individuals 
are not currently looking for work because they believe no jobs are 
available for them.
    In summary, nonfarm payroll employment was essentially unchanged in 
November, and the unemployment rate edged down to 10.0 percent.
    My colleagues and I now would be glad to answer your questions.
    [GRAPHIC] [TIFF OMITTED] 55806.001
    
    [GRAPHIC] [TIFF OMITTED] 55806.002
    
    [GRAPHIC] [TIFF OMITTED] 55806.003
    
    [GRAPHIC] [TIFF OMITTED] 55806.004
    
    [GRAPHIC] [TIFF OMITTED] 55806.005
    
    [GRAPHIC] [TIFF OMITTED] 55806.006
    
    [GRAPHIC] [TIFF OMITTED] 55806.007
    
    [GRAPHIC] [TIFF OMITTED] 55806.008
    
    [GRAPHIC] [TIFF OMITTED] 55806.009
    
    [GRAPHIC] [TIFF OMITTED] 55806.010
    
    [GRAPHIC] [TIFF OMITTED] 55806.011
    
    [GRAPHIC] [TIFF OMITTED] 55806.012
    
    [GRAPHIC] [TIFF OMITTED] 55806.013
    
    [GRAPHIC] [TIFF OMITTED] 55806.014
    
    [GRAPHIC] [TIFF OMITTED] 55806.015
    
    [GRAPHIC] [TIFF OMITTED] 55806.016
    
    [GRAPHIC] [TIFF OMITTED] 55806.017
    
    [GRAPHIC] [TIFF OMITTED] 55806.018
    
    [GRAPHIC] [TIFF OMITTED] 55806.019
    
    [GRAPHIC] [TIFF OMITTED] 55806.020
    
    [GRAPHIC] [TIFF OMITTED] 55806.021
    
    [GRAPHIC] [TIFF OMITTED] 55806.022
    
    [GRAPHIC] [TIFF OMITTED] 55806.023
    
    [GRAPHIC] [TIFF OMITTED] 55806.024
    
    [GRAPHIC] [TIFF OMITTED] 55806.025
    
    [GRAPHIC] [TIFF OMITTED] 55806.026
    
    [GRAPHIC] [TIFF OMITTED] 55806.027
    
    [GRAPHIC] [TIFF OMITTED] 55806.028
    
    [GRAPHIC] [TIFF OMITTED] 55806.029
    
    [GRAPHIC] [TIFF OMITTED] 55806.030
    
    [GRAPHIC] [TIFF OMITTED] 55806.031
    
  

                                  <all>

</pre></body></html>
